Washington, D.C. 20530

September 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Dawn J. Bennett v. United States of America,
S.Ct. No. 21-5092
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 12, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on October 4, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5092
BENNETT, DAWN J.
USA

ERIC JOSEPH BRIGNAC
ASSISTANT FEDERAL PUBLIC DEFENDER
150 FAYETTEVILLE STREET
SUITE 450
RALEIGH, NC 27601
919-856-4236
ERIC_BRIGNAC@FD.ORG

